                                    TVA RESTRICTED INFORMATION




Memorandum from the Office of the Inspector General



March 28, 2014

James R. Dalrymple, LP 3K-C

FINAL REPORT – AUDIT 2012-14744 – AUDIT OF ASSET PERFORMANCE
VULNERABILITY RISK – EQUIPMENT



We reviewed Coal Operations’ (CO) 4th quarter fiscal year (FY) 2012, 2nd quarter FY2013,
and 4th quarter FY2013 enterprise risk maps for asset performance vulnerability to assess
whether risk mitigation plans and actions were established and properly designed to
manage risks. We determined the 4th quarter FY2013 mitigation plans and actions were
adequately designed to manage risks; however, the risk rating and trend1 had increased
over the past 2 years. We also identified an opportunity to improve risk mitigation strategy
documentation.

BACKGROUND

In July 2010, the Tennessee Valley Authority (TVA) signed into effect an Enterprise Risk
Management (ERM) Policy,2 which provides requirements and guidance on risk
management activities within TVA. The policy states strategic business units within TVA
are responsible for managing risks within their business operations and should (1) identify
and assess risks associated with achieving their business objectives and (2) develop risk
management plans that mitigate risk based on TVA’s ERM Guidelines.3 One such
strategic business unit within TVA is the CO organization.4 In support of TVA’s vision,
which includes an aspiration to be one of the nation’s leaders in customer reliability, CO’s
mission is “to provide low-cost, reliable generation while keeping [TVA] people safe and
ensuring compliance with environmental regulations.”

As required by the ERM Policy, CO identified several risks associated with achieving its
business objective and developed mitigation plans for those risks. These risks and
mitigation plans are captured on risk maps. One such risk identified by CO is asset
performance vulnerability which the organization defined as: (1) asset performance risks
affecting CO’s ability to be available to provide reliable generation when called on to meet

1
    The trend shows how the risk assessment is expected to change in some future update absent any
    additional mitigations.
2
    The ERM Policy refers to TVA-SPP-13.17.
3
    The ERM Guidelines refers to TVA-SPP-13.17.1.
4
    Coal Operations currently operates under the name Power Operations.
       WARNING: This document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
       distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
               is not to be further distributed without prior approval of the Inspector General or his designee.

                                    TVA RESTRICTED INFORMATION
James R. Dalrymple
Page 2
March 28, 2014



TVA system demands and (2) unit availability risk driven by equipment-failure-related
forced/maintenance outage events and planned outage extension of significant durations.
The risk is included in TVA’s Asset Performance and Operations enterprise risk category.
That category focuses on assets performing reliably and constantly as required by the
power supply plan.

The ERM Guidelines provide a scale for rating the probability and consequence5 of
identified risks. The scale for probability includes remote, unlikely, even odds, very likely,
and virtually certain. The scale for consequence includes minor, moderate, major, severe,
and worst case. Additionally, the consequence scale is divided into four subcategories to
indicate the strategic objective most likely impacted by a risk occurrence: public image,
safety, financial, and environmental. As of 4th quarter FY2013, CO rated the risk of asset
performance vulnerability as a very likely probability having moderate6 financial
consequence.

According to a version of the 4th quarter FY2013 risk map, CO has four mitigation plans
and six mitigating actions, or projects, for the risk of asset performance vulnerability.
Three of CO’s mitigation plans focused on reducing the probability of occurrence, while
the other mitigation plan concentrated on reducing the consequences. The risk map
includes continuing plants and those scheduled to be idled.

OBJECTIVE, SCOPE AND METHODOLOGY

Due to the importance of reliable energy production at TVA, we chose to audit the risk of
asset performance vulnerability in CO. The audit objective was to assess whether risk
mitigation plans and actions were established and properly designed to manage the risk.
We did not assess the operating effectiveness of the mitigation plans and actions.

To achieve our objective, we:

    Obtained and reviewed relevant Standard Programs and Processes for information on
     policies, procedures, and control activities related to TVA’s ERM to gain an
     understanding of the risk management procedures. We did not perform testing of
     internal controls; our intent was to simply gain an understanding of those activities
     within the ERM process.
    Obtained and reviewed the 4th quarter FY2012, 2nd quarter FY2013, and 4th quarter
     FY2013 enterprise risk maps to acquire the definition of the risk, the rating of the risk,
     the mitigation strategy, and the mitigating actions. We reviewed the definition of the
     risk and used professional judgment to determine if the mitigation strategy and
     mitigating actions address the risk as it is defined. We also obtained other past
     versions of the risk map to note if the risk rating changed (i.e., increased or decreased)
     over time.


5
    The ERM Guidelines define probability as the likelihood or frequency of a risk occurring, while
    consequence is defined as the outcome of an event.
6
    The ERM Guidelines define very likely as a 75-percent probability that the event will occur in the next
    36-60 months, while a moderate financial consequence is defined as a $25-$100 million impact.
                                   TVA RESTRICTED INFORMATION
James R. Dalrymple
Page 3
March 28, 2014



    Interviewed CO personnel to obtain information and documentation related to the risk
     and the design of the risk map and to determine if additional actions were being taken
     that were not documented on the risk map. We used this information and
     documentation in conjunction with professional judgment to identify an opportunity to
     improve the mitigation strategy documentation.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective.

FINDINGS

We determined the 4th quarter FY2013 mitigation plans and actions were adequately
designed to manage the risks. Although the risk rating and trend had increased from
2 years ago,7 in our opinion, mitigation plans and actions that consider utilization of
assessment tools, replacing components during planned outages, development and
implementation of projects and programs to avoid consequences, and reclassification of
components to capital from Operations and Maintenance to increase investment in long-
term improvements reasonably address the risk of asset performance vulnerability in CO.

During our audit, we identified an opportunity to improve CO’s risk mitigation
documentation. Specifically, we found that actions included on the 2nd quarter FY2013
risk map lacked detail to allow individuals unfamiliar with CO to determine how those
actions could reduce the risk of asset performance vulnerability in CO. The 2nd quarter
FY2013 risk map listed one general action and one specific action: (1) implement FY2013
business plan projects and outages and (2) preventative maintenance program. The risk
owners stated that when the 2nd quarter FY2013 map was developed, specific actions
were not included because those actions contained business sensitive information related
to TVA’s plans for idling of its coal-fired plants/units, including future staffing needs. At
various times during this audit, the Office of the Inspector General discussed this
improvement opportunity with the risk owner and suggested adding detail to mitigating
actions. The version of the 4th quarter FY2013 risk map contains five specific mitigating
actions and one general mitigating action, which addressed our suggestion.

                            -        -        -        -        -        -




7
    According to TVA, the increase in risk rating and trend from 2 years ago is due to decreased funding in
    general in conjunction with a minimal funding strategy for units scheduled to be idled. TVA has made the
    decision to accept some risks and stop long-term investment in the units that are scheduled to be idled,
    with the exception of safety and regulatory concerns.
                                  TVA RESTRICTED INFORMATION
James R. Dalrymple
Page 4
March 28, 2014



This report is for your review and information. No response to this report is necessary.
Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information that you recommend be withheld.

If you have any questions, please contact Jamie M. Wykle, Auditor, at (865) 633-7382 or
Lisa H. Hammer, Director, Operational Audits, at (865) 633-7342. We appreciate the
courtesy and cooperation received from your staff during the audit.




Robert E. Martin
Assistant Inspector General
 (Audits and Evaluations)
ET 3C-K

JMW:BSC
cc: Suzanne H. Biddle, LP 2R-C
    William D. Johnson, WT 7B-K
    Dwain K. Lanier, MR 3K-C
    Justin C. Maierhofer, WT 7B-K
    Richard W. Moore, ET 4C-K
    R. Windle Morgan, WT 9B-K
    Charles G. Pardee, WT 7B-K
    OIG File No. 2012-14744




                              TVA RESTRICTED INFORMATION
